                            SOCIAL SECURITY
                            Office of the Inspector General

                                      July 14, 2010


The Honorable Earl Pomeroy
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Pomeroy:

During a March 24, 2009 hearing on eliminating the Social Security disability backlog,
Congress asked what the Social Security Administration had done to streamline the
disability claims process. Based on this inquiry, we initiated this review to highlight
several initiatives the Agency implemented to address changes in society.

Thank you for the opportunity to provide the Committee with this information. To ensure
the Agency is aware of the information provided to your office, we are forwarding a copy
of this report to the Agency. I have also sent a similar response to Ranking Member
Sam Johnson.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison, at (202) 358-6319.

                                                      Sincerely,




                                                      Patrick P. O’Carroll, Jr.
                                                      Inspector General

Enclosure

cc:
Michael J. Astrue




            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
                            SOCIAL SECURITY
                            Office of the Inspector General

                                      July 14, 2010



The Honorable Sam Johnson
Ranking Member, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

During a March 24, 2009 hearing on eliminating the Social Security disability backlog,
Congress asked what the Social Security Administration had done to streamline the
disability claims process. Based on this inquiry, we initiated this review to highlight
several initiatives the Agency implemented to address changes in society.

Thank you for the opportunity to provide the Committee with this information. To ensure
the Agency is aware of the information provided to your office, we are forwarding a copy
of this report to the Agency. I have also sent a similar response to Chairman Earl
Pomeroy.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison, at (202) 358-6319.

                                                      Sincerely,




                                                      Patrick P. O’Carroll, Jr.
                                                      Inspector General

Enclosure

cc:
Michael J. Astrue




            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

The Social Security Administration’s
     Disability Programs and
        Changes in Society

            A-01-09-19028




              July 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               Executive Summary
OBJECTIVE
To determine how the Social Security Administration (SSA) modified the disability
programs in response to changes that had taken place in society since 1980.

BACKGROUND
SSA provides Disability Insurance and Supplemental Security Income disability benefits
to eligible individuals under Titles II and XVI of the Social Security Act (Act). An adult is
considered disabled under the Act if he or she is unable to engage in substantial gainful
activity by reason of a medically determinable physical or mental impairment that can be
expected to result in death or has lasted, or can be expected to last, for a continuous
period of not less than 12 months.

During a March 24, 2009 hearing on eliminating the Social Security disability backlog,
Congress asked what SSA had done to streamline the disability claims process.

RESULTS OF REVIEW
SSA implemented several initiatives in response to changes that have taken place in
society since 1980. For example, the Agency has updated its Listing of Impairments
(Listings) to reflect changes in medicine and assistive technology and developed a new
process to keep the Listings updated. The Agency has also begun developing a new
Occupational Information System that, unlike the current system, will include up-to-date
information on jobs that exist in the national economy. Additionally, SSA has been
pursuing the use of technology in its disability claims process to address the increasing
disability workloads.

CONCLUSION
Although the Agency implemented many initiatives in response to the changes that
have taken place in our society since 1980, it did not always implement them quickly
because of such factors as resource limitations and matters that needed to be resolved
through new legislation or regulation. Furthermore, while some initiatives worked,
others did not. As a result, SSA has not been able to keep pace with all changes in
society.




SSA’s Disability Programs and Changes in Society (A-01-09-19028)
                                                                        Table of Contents
                                                                                                                    Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 4

Medical and Technological Advances and Emerging Diseases .............................. 4

Shift in Jobs that Exist in the National Economy ..................................................... 5

General Increase in the Number of Disability Claims and Beneficiaries .................. 6

    •    Eliminate the Hearings Backlog and Prevent its Recurrence ....................... 6

    •    Improve the Speed and Quality of the Disability Process ............................. 8

    •    Preserve the Public’s Trust in the Social Security Administration’s
         Programs .................................................................................................... 12

CONCLUSION ...................................................................................................... 14

OTHER MATTERS ............................................................................................... 15

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – The Social Security Administration’s Processes for Evaluating Disability
             in Adults and Children

APPENDIX C – The Social Security Disability Claims Process

APPENDIX D – Scope and Methodology

APPENDIX E – Prior Office of the Inspector General Reports

APPENDIX F – Work Incentives




SSA’s Disability Programs and Changes in Society (A-01-09-19028)
                                                                             Introduction
OBJECTIVE
To determine how the Social Security Administration (SSA) modified the disability
programs in response to changes that had taken place in society since 1980.

BACKGROUND
SSA provides Disability Insurance (DI) and Supplemental Security Income (SSI)
disability benefits to eligible individuals under Titles II and XVI of the Social Security Act
(Act). 1 An adult is considered disabled under the Act if he or she is unable to engage in
substantial gainful activity (SGA) by reason of a medically determinable physical or
mental impairment that can be expected to result in death or has lasted, or can be
expected to last, for a continuous period of not less than 12 months. 2

To determine whether an adult is disabled, SSA’s regulations provide a five-step
sequential evaluation process, based on the statutory definition of disability. 3 SSA’s
regulations also provide a similar sequential evaluation process with three steps for
evaluating disability in children. 4 For more information on both processes, see
Appendix B.

To receive disability benefits, an individual must first file a claim with SSA. An SSA field
office then determines whether the individual is performing SGA and whether he or she
meets the non-disability criteria for benefits, 5 and if so, generally forwards the claim to
the disability determination services (DDS) in the State or other responsible jurisdiction
in accordance with the Act and Federal regulations for a disability determination. Once



1
    The Act §§ 223 et seq. and 1611 et seq., 42 U.S.C. §§ 423 et seq. and 1382 et seq.
2
  The Act §§ 216(i)(1), 223(d)(1)(A), and 1614(a)(3)(A); 42 U.S.C. §§ 416(i)(1), 423 (d)(1)(A), and
1382c(a)(3)(A). See also 20 C.F.R. §§ 404.1505 and 416.905. A child is considered to be disabled for
SSI purposes under the Act if he or she has a medically determinable physical or mental impairment,
which results in marked and severe functional limitations, and which can be expected to result in death or,
which has lasted, or can be expected to last, for a continuous period of not less than 12 months. The Act
§ 1614(a)(3)(C)(i), 42 U.S.C. § 1382c(a)(3)(C)(i). See also 20 C.F.R. § 416.906. The Act also provides a
separate definition of blindness for adults and children.
3
    20 C.F.R. §§ 404.1520 and 416.920.
4
    20 C.F.R. § 416.924.
5
  For DI benefits, the non-disability criteria include such factors as insured status, which has not changed
over the past 30 years. For SSI payments, the non-disability criteria include such factors as limited
income and resources.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                           1
the DDS makes a determination, it sends the claim to an SSA office for final processing
or to a Disability Quality Branch for review before final processing. 6

Claimants who disagree with the initial disability determination can file an appeal within
60 days from the date they are notified of the determination. In most cases, there are
three levels of administrative review that an individual may request: (1) reconsideration
by the DDS, (2) hearing by an administrative law judge (ALJ), and (3) review by the
Appeals Council. After completing the administrative review process, dissatisfied
claimants may appeal to the Federal Courts. 7 (See Appendix C for details about the
role each component plays in SSA’s disability claims process.)

The DI program was enacted in the 1950s, and the SSI program was enacted in the
1970s. Since 1980, the definition of disability for adults under the Act has remained the
same, even though our society has changed in many ways. Examples follow.

•     Many new forms of medical treatment (such as brain tissue transplant surgery),
      diagnostic tests (such as magnetic resonance imaging), and assistive technology
      (such as a computer screen reader) have been developed. In addition, new
      diseases have emerged, such as the human immunodeficiency virus (HIV).
•     White collar and service-type jobs have increased while blue collar jobs have
      decreased, and many blue collar jobs require more technological knowledge, such
      as the use of computers and other devices.
•     The number of people applying for and receiving disability benefits has generally
      increased each year.

During a March 24, 2009 hearing on eliminating the Social Security disability backlog,
Congress asked what SSA had done to streamline the disability claims process. 8
Based on this inquiry, we initiated this review to highlight several initiatives the Agency
implemented to address changes that had taken place in society since 1980. 9


6
  By statute, the Disability Quality Branches review half of all allowances, which are selected by a
predictive model. Disability Quality Branches also perform a quality assurance review on 70 initial
allowances and 70 initial denials per State per calendar quarter. This sample ensures statistically valid
findings for all DDSs irrespective of size. For each review, a Federal quality reviewer determines whether
the record supports the DDS’ determination and whether the evidence and determination conform to
SSA’s policies and procedures.
7
 The reconsideration step of the administrative review process is eliminated for DDSs participating in the
Disability Redesign Prototype (Alabama, Alaska, California (Los Angeles North and Los Angeles West
Branches), Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York, and Pennsylvania).
8
    A transcript can be found at http://waysandmeans.house.gov/Hearings/transcript.aspx?NewsID=10382.
9
  In 2006, SSA published a report that provided a detailed history of its disability programs under Title II
and briefly mentioned the Agency’s disability program under Title XVI. SSA, Social Security and the “D”
in OASDI: The History of a Federal Program Insuring Earners Against Disability, Social Security Bulletin,
Volume 66, No. 3, August 2006.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                               2
To perform this review, we gathered and reviewed information on SSA’s disability
programs, disability-related issues, and changes in our society. (See Appendix D for
more information on our scope and methodology.)




SSA’s Disability Programs and Changes in Society (A-01-09-19028)                       3
                                                        Results of Review
In response to changes that have taken place in society since 1980, SSA implemented
various initiatives, such as those shown in Table 1.

                     Table 1: Initiatives to Address Changes in Society
                 Change in Society                                   Initiative
     Medical and technological advances and        Update the Listing of Impairments
     emerging diseases                             (Listings) and Keep Them Updated

     Shift in jobs that exist in the national      Develop a new Occupational Information
     economy                                       System

     General increase in the number of             Eliminate the Hearings Backlog and
     disability claims and beneficiaries           Prevent Its Recurrence
                                                   Improve the Speed and Quality of the
                                                   Disability Process
                                                   Preserve the Public’s Trust in SSA’s
                                                   Programs


MEDICAL AND TECHNOLOGICAL ADVANCES AND EMERGING DISEASES

Since the establishment of the disability programs, SSA used the Listings to assist in
determining whether an individual is disabled. The Listings are regulations that
describe impairments considered severe enough to prevent an adult from performing
any SGA. 10 It includes information on diagnoses, laboratory findings (including
acceptable diagnostic tests), symptoms, signs, and functional limitations, including the
potential effects of prescribed treatments and assistive technology on functional
capacity.

All disability claimants who are not performing SGA and have severe impairments are
screened against the Listings to more quickly identify individuals who clearly meet the
definition of disability. If the claim is not allowed based solely on the medical
assessment, the Agency makes a disability determination based on a vocational
assessment of the claimant’s ability to do past relevant work, and if necessary, the
claimant’s ability to do any other work in the national economy, considering his or her
age, education, and work experience. Quick identification of obvious allowance cases
permits SSA to avoid time-consuming and resource-intensive inquiries into all the facts
of many cases.



10
  The Listings also describe impairments considered severe enough to cause a child to have marked and
severe functional limitations.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                    4
Periodically, SSA updated its Listings to reflect the development of new forms of
medical treatment, diagnostic tests, assistive technology, and diseases. However, in
our August 2000 review, we found that SSA had not updated some Listings to reflect
changes in medicine and assistive technology in over 10 years. 11 As a result, the
Listings may not have been as effective in determining disability during this time as it
had been in past. In our March 2009 review, The Social Security Administration’s
Listing of Impairments (A-01-08-18023), we found that SSA had made progress in
updating the Listings and expected to finish by mid-2010. We also found that SSA had
implemented a new process to keep the Listings updated at least once every 5 years.

Under this new process, the Agency conducts a case study within 1 year of newly
published Listings and determines whether an action is necessary—such as training,
formal instructions, or a new or revised regulation. If no action is needed, SSA will
continue to monitor the Listings, conduct another case study 4 years before the Listings
expires, and begin updating the Listings.

SHIFT IN JOBS THAT EXIST IN THE NATIONAL ECONOMY

Since the establishment of the disability programs, SSA has considered vocational
factors (age, education, and past work experience) in disability determinations that
could not be based on medical factors alone. In these cases, SSA first determines
whether the claimant can do past relevant work and, 12 if not, whether he or she can do
any other work considering all the vocational factors. Any other work the claimant can
do must exist in significant numbers in the national economy (either in the region where
the individual lives or in several regions in the country).

When considering all the vocational factors in a case, SSA refers to its Medical-
Vocational Guidelines, which consist of a set of rules that reflect specific criteria for
each factor. These rules also reflect the existence of unskilled jobs in the national
economy. When all the factors coincide exactly with a particular rule, the rule dictates a
decision of disabled or not disabled. When one or more factors do not coincide exactly
with a particular rule, the rules are used as guidance for determining whether a person
is disabled. 13

Over the years, SSA has relied on the Department of Labor’s Dictionary of Occupational
Titles (DOT) as its main source of information about the requirements of jobs that exist


11
  SSA, Office of the Inspector General (OIG), Status of the Social Security Administration’s Updates to
the Medical Listings (A-01-99-21009), August 2000. For more information on this review and others
mentioned later in this report, see Appendix E.
12
  SSA generally defines past relevant work as any SGA the claimant performed in the past 15 years that
lasted long enough for him or her to have learned to do the work. 20 C.F.R. §§ 404.1560(b) and
416.960(b). See also SSA, Program Operations Manual System (POMS), DI 25001.001 B 60 and 65.
This definition has remained the same for about 30 years.
13
     20 C.F.R. §§ 404.1569 and 416.969. See also SSA, POMS, DI 25025.005.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                          5
in the national economy. 14 Although the DOT was not specifically designed for SSA’s
disability programs, it came closer to meeting SSA’s legal and program requirements
than any other occupational information resource that existed in the 1960s.

While minor revisions were made in 1991, the DOT’s last major revision was in 1977,
and the Department of Labor has no plans to update it again—even though the jobs that
exist in the national economy have significantly changed since then. 15 For example,
such jobs as Web designers did not exist until after the 1970s. Conversely, some
common jobs in the 1970s have dramatically declined, such as gas station attendants
who have been replaced by self-service gas stations. Therefore, the DOT may not be
as reliable a source of occupational information for determining disability as it was in the
past. In December 2008, the Commissioner of Social Security established the
Occupational Information Development Advisory Panel to provide—within 2 years—
recommendations for developing a replacement for the DOT that meets all the Agency’s
needs and can be continuously updated. 16

GENERAL INCREASE IN THE NUMBER OF DISABILITY CLAIMS AND
BENEFICIARIES

Since 1980, the number of disability claims and beneficiaries generally increased each
year. To address these increasing workloads, SSA has implemented a number of
initiatives, all of which fall under three of the Agency’s current strategic goals: eliminate
the hearings backlog and prevent its recurrence, improve the speed and quality of the
disability process, and preserve the public’s trust in SSA’s programs. 17

Eliminate the Hearings Backlog and Prevent its Recurrence

At the end of Fiscal Year (FY) 2001, SSA’s pending hearings workload was
392,387 cases. By the end of August 2009, it had grown to about 734,000 cases.18 At
the same time, the average processing time at the hearings level increased from 293 to
493 days.



14
   U.S. Department of Labor, Dictionary of Occupational Titles, Fourth Ed. (1991), available at:
http://www.oalj.dol.gov/LIBDOT.HTM.
15
   See United States Department of Labor, Dictionary of Occupational Titles, Fourth Edition, Revised
1991, available at: http://www.oalj.dol.gov/libdot.htm; see also SSA, Occupational Information
Development Advisory Panel, Content Model and Classification Recommendations for the Social Security
Administration Occupational Information System, available at:
http://www.socialsecurity.gov/oidap/Documents/Occupational%20Information%20Development%20Advis
ory%20Panel.pdf, at page 21.
16
     For more information on the Advisory Panel, see http://www.socialsecurity.gov/oidap/.
17
     SSA, Strategic Plan, Fiscal Years 2008-2013, September 2008.
18
     This workload increased as the number of disability claims increased.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                   6
In his May 23, 2007 testimony to Congress, the Commissioner of Social Security
announced a plan to eliminate the backlog of hearing requests by 2013 and prevent its
recurrence. The Commissioner’s plan focused on a number of initiatives, such as
(1) improving hearing office procedures, (2) increasing adjudicatory capacity, and
(3) increasing efficiency with automation and improved business processes.

 Improve Hearing        SSA has two initiatives in place to improve hearing office
 Office Procedures procedures: reduction of aged cases and adjudication of cases
                        by Senior Attorneys. Under the aged case initiative, SSA focused
on eliminating cases 1,000 days or older in FY 2007, 900 days or older in FY 2008,
850 days or older in FY 2009, and 825 days or older in FY 2010. As a result of this
initiative, SSA will continue processing the oldest cases first at the hearings level.
Under the Senior Attorney initiative, which was implemented in August 2007, SSA
provides certain attorney advisors the authority to make fully favorable decisions. This
reserves ALJ resources for conducting hearings on more complex cases. From
FY 2008 through March 2010, Senior Attorneys had issued over 86,000 favorable
decisions.

                              SSA has seven initiatives aimed at increasing adjudicatory
 Increase Adjudicatory capacity, including DDS Informal Remands and hiring new
 Capacity                     staff. Under the DDS Informal Remand initiative, which was
                              implemented in June 2007, the Office of Disability
Adjudication and Review (ODAR) selects cases based on certain profiles and returns
them to the DDS to determine whether a fully favorable determination can be made. As
a result of this initiative, DDSs allowed almost 16,000 remanded claims in FY 2008 and
over 14,000 in FY 2009. Under the hiring initiative, SSA hired ODAR staff using funds
provided by SSA’s FY 2009 appropriation and the American Recovery and
Reinvestment Act of 2009 (ARRA). 19

                                 At the beginning of FY 2009, SSA had 27 initiatives
Increase Efficiency with         related to automation and business processes. One
Automation and Improved initiative was an electronic file assembly process called
Business Process                 ePulling. This initiative, which was piloted in five hearing
                                 offices, involved the development of customized software
to identify, classify, and sort page-level data; reorganize the images after classification;
and identify duplicates. In our June 2009 review, Electronic File Assembly
(A-07-09-19069), we found that ODAR was facing challenges with the accuracy of the
ePulling software, which was increasing case preparation time. We also found that
ODAR needed to establish a sufficient methodology for measuring ePulling’s impact on
the hearings process, which was critical to future decisions on expanding the use of
ePulling to other hearing offices. During our review, SSA arranged for Booz Allen
Hamilton to develop an assessment methodology to measure the success of the
ePulling initiative including the impact on hearing office productivity. We recommended

19
  Pub. L. No. 111-5, Division A, Title VIII. In December 2009, we conducted a review, The Office of
Disability Adjudication and Review’s Staffing Plans Under the American Recovery and Reinvestment Act
(A-12-09-29140), in which we assessed ODAR’s staffing plans funded by ARRA.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                       7
that SSA include additional procedures in the assessment methodology, with which
SSA agreed. In July 2009, SSA found that ePulling had not resulted in improved
efficiency and terminated the pilot.

Another initiative is expanding the use of video equipment at hearings to increase ALJ
productivity and decrease ALJ travel. This video initiative also includes a
Representative Video Project, which will allow claimant representatives to use their
equipment to participate in hearings from their own offices.20 According to SSA, in
FY 2009, the Agency spent approximately $13 million in ARRA funds in information
technology that includes video conference equipment for hearings and workstations.

Improve the Speed and Quality of the Disability Process

Since the 1980s, the number of initial disability claims has generally increased—
sometimes significantly—each year. Because of the combined effects of the aging of
the baby boomers and the deterioration of the economy, the number of initial disability
claims increased about 15 percent in FY 2009 and almost 8 percent in FY 2010
(through March). This is the highest level of receipts the Agency has ever experienced.
Along with increased receipts, some DDSs are facing high attrition rates, hiring freezes,
and employee furloughs, all of which impact SSA’s ability to process its disability
workload. 21

To address this situation, SSA has pursued a number of initiatives, such as (1) using
technology in the disability claims process, (2) Military Service Casualty Cases (MSCC),
(3) Disability Service Improvement (DSI)—including Quick Disability Determinations,
(4) Compassionate Allowances, (5) Disability Redesign, and (6) hiring more staff. SSA
is also developing a multi-year plan to reduce the initial disability claims backlog to pre-
recession levels. 22

Use Technology in the              By the 1980s, the DDSs began to use computers.
Disability Claims Process          Gradually, working with SSA, each of the DDSs designed
                                   its own computer system to meet the unique needs of its
State. In 1992, the Agency attempted to replace these systems with a single central
system, the Reengineered Disability System. SSA piloted the system in its Virginia field
offices and the Federal DDS in Baltimore. While SSA achieved some success in the
pilot, it ran into significant performance problems.

20
  We are conducting reviews on the Use of Video Hearings to Reduce the Hearing Case Backlog
(A-05-08-18070) and Representative Video Project (A-05-09-19101).
21
  In our March 2009 review, Impact of State Employee Furloughs on the Social Security Administration’s
Disability Programs (A-01-09-29137), and our November 2009 review, Impact of State Budget Issues on
the Social Security Administration’s Disability Programs (A-01-10-11006), we reported the impact that
furloughs and other DDS issues have on SSA’s disability programs.
22
  This plan focuses on a number of initiatives, such as (1) using national resource sites located around
the country to help DDSs, (2) expediting already planned hardware upgrades to maximize system
performance, and (3) refining business processes to expedite case processing.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                           8
As a result, in 1999, the Agency decided to build on the strengths of the existing DDS
systems, rather than replace them with a single central system. Through this approach,
the Agency developed the Electronic Disability (eDIB) process, which it began
implementing in FY 2004. The eDIB contains an electronic folder of all essential
documentation necessary for determining disability and is accessible by all processing
components. According to SSA, this process has several benefits, including improved
productivity and processing times.

In 2006, SSA implemented the Findings Integrated Templates for ODAR. This tool
contains approximately 2,000 templates that cover the most common decisional
outcomes made by ALJs. The templates are designed to help ensure all relevant
issues are properly addressed in the decision. The templates also provide guidance on
how to address these issues.23

In 2006, SSA also began testing the Electronic Claims Analysis Tool (eCAT) for the
DDSs. The eCAT is a Web-based application that assists disability examiners in the
analysis, documentation, and adjudication of the disability claim. It guides DDS staff
through the sequential evaluation process to ensure all relevant Agency policies are
considered and documented when making a disability determination. It also provides
links to references, such as pertinent regulations and Social Security rulings, and
produces an explanation for the disability determination. To date, the Agency has
reported that testing suggests eCAT may be effective in ensuring policy-compliant
determinations. SSA also reports that it is useful for training. As a result, the Agency
has begun implementing eCAT nationwide and expects to complete the rollout by
April 2011. 24

In FY 2007, the Agency considered developing a common Disability Case Processing
System (DCPS) for the DDSs to position the Agency to leverage emerging technology;
share workloads easily; and facilitate national implementation of policy changes. The
Agency formed a Steering Committee (consisting of representatives from the regional
offices, State DDSs, and Headquarters) to lead the effort. In November 2007, the
Steering Committee held a summit to obtain input from the DDS community regarding
the viability of developing a common DCPS. In May 2008, the DDS community
overwhelmingly supported moving forward with the project. In February 2009, subject
matter experts from every DDS along with representatives from the field and ODAR met
and developed a “To-Be” model. In August 2009, the requirement solicitation sessions
began. Using the high-level requirements that resulted from these sessions, the
Agency issued a request for procurement to seek potential vendor support to design
and develop the system. Currently, SSA is evaluating the proposals and expects to
release a test model for this project during 2011.


23
  We are assessing the impact of the templates on the accuracy and timeliness of written decisions in
our review, Office of Disability Adjudication and Review Decision-Writing Process (A-02-09-19068).
24
  We initiated a review of eCAT in FY 2010, The Social Security Administration’s Electronic Claims
Analysis Tool (A-01-10-11010).


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                        9
In FY 2008, the Agency implemented the Medical Evidence Gathering and Analysis
through Health Information Technology (MEGAHIT) prototype. This computer process
automatically requests and receives standardized electronic health records to support
SSA’s disability determination process. It then analyzes the records and sends an alert
to the DDS if the claim might be an allowance according to SSA’s Listings.

In August 2008, SSA began testing MEGAHIT with Beth Israel Deaconess Medical
Center in the Massachusetts DDS. In February 2009, the Agency began testing
MEGAHIT with MedVirginia in the Virginia DDS to obtain information from additional
providers through the Nationwide Health Information Network, which connects diverse
entities that need to exchange health information. According to SSA, preliminary
findings indicate that approximately 12 percent of the cases processed with Health
Information Technology medical information were determined within 48 hours of case
assignment. SSA awarded contracts to additional health care providers in FY 2010.

Also, in FY 2010, SSA began implementing Disability Direct. This initiative is geared
toward increasing the number of disability claims and appeals filed online.

•   Individuals will be able to access a new online application for disability benefits,
    which will be easier to use than the current application and will include links,
    prompts, and other tools to assist them.

•   Appointed representatives will be able to register online for services, such as
    accessing electronic folders for cases pending at the hearing level and uploading
    evidence to the electronic folders.

• Third parties and medical care providers will be able to provide information
  electronically to SSA on behalf of individuals filing for disability benefits. SSA is
  facing some challenges with the implementation of this part of the initiative, such as
  privacy issues and the authorization for releasing medical records.

Military Service           In March 2004, SSA implemented the MSCC initiative, which
Casualty Cases             expedites the disability claims process for wounded military
                           service members and their families. To qualify, the military
service member must have a disabling condition that began on or after October 1, 2001
while on active duty. In our December 2009 review, Military Service Casualty Cases
(A-01-09-29056), we found that SSA processed most cases identified as MSCC in
fewer days than the national average.

                         In 2006, SSA designed DSI to produce correct decisions on
Disability Service
                         disability claims as early in the process as possible. DSI was
Improvement
                         expected to reduce both appeals of denied claims and future
backlogs. DSI produced mixed results, and the Commissioner ultimately suspended
many aspects of DSI. SSA found one aspect of DSI, Quick Disability Determinations,
produced timely and accurate decisions and rolled it out nationally in FY 2008. This
computer process uses a predictive model to identify claims in which it is highly


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                           10
probable the claimant is disabled and the claimant’s allegations can be easily and
quickly verified so the claim can be processed within 20 calendar days of receipt in the
DDS. In our May 2009 review, National Rollout of Quick Disability Determinations
(A-01-09-19030), we found the process was working as SSA intended.

Compassionate               In October 2008, SSA implemented the Compassionate
                            Allowance initiative to expedite the processing of disability
Allowances
                            claims for applicants whose medical conditions are so severe
that their conditions clearly meet SSA’s definition of disability. Like Quick Disability
Determinations, this process uses a predictive model, but it is simpler—selecting claims
based solely on the claimant’s allegation of having a disease or other medical condition
in the Agency’s list of Compassionate Allowance conditions. SSA launched the
expedited decision process with 50 conditions—25 rare diseases and 25 cancers. On
February 11, 2010, the Commissioner announced that the Agency added 38 more
conditions to the list of Compassionate Allowance conditions. The new conditions
range from adult brain disorders to rare diseases that primarily affect children. 25

                       In 1997, SSA began piloting a new disability claims process as
Disability
                       part of the Disability Redesign initiative. From this pilot, the
Redesign
                       Agency identified the successful elements, including (1) using
Single Decision Makers (SDM) in the DDSs, which are disability examiners who can,
generally, make disability determinations without sign-off by a medical/psychological
consultant 26 and (2) eliminating the reconsideration step of the administrative review
process.

In 1999, SSA began piloting these 2 elements further in 10 Prototype States (Alabama,
Alaska, California (Los Angeles North and Los Angeles West Branches), Colorado,
Louisiana, Michigan, Missouri, New Hampshire, New York, and Pennsylvania). 27 In
FY 2010—11 years after the pilot began—the Agency selected Michigan as the first
Prototype State to reinstate the reconsideration step in FY 2011. SSA decided to
assess the effect of reinstating the reconsideration step as part of the disability claims
process in Prototype States because allowing claims at the reconsideration level
provides benefits earlier to some claimants who would otherwise wait for a hearing.
Decisions about other Prototype States are still pending. 28 Further, on March 4, 2010,
the Agency published a notice of proposed rulemaking to allow disability examiners in
25
     We are conducting a review of the Compassionate Allowance Initiative (A-01-10-21080).
26
  Medical/psychological consultant refers to physicians, psychologists, psychiatrists, optometrists,
podiatrists, and speech-language pathologists employed by the DDS. 20 C.F.R. §§ 404.1616 and
416.1016. See also SSA, POMS, DI 24501.001 C 2.
27
  Since 1999, the Agency has selected nine more States and one U.S. territory to test the use of SDMs
(Florida, Guam, Kansas, Kentucky, Maine, Nevada, North Carolina, Vermont, Washington, and West
Virginia).
28
  In April 2010, we conducted a review, Reinstatement of the Reconsideration Step in the Michigan
Disability Determination Services (A-01-10-20153), to assess the impact of reinstating reconsiderations in
the Michigan DDS.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                        11
all States to make Quick Disability Determinations and Compassionate Allowances
without sign-off by a medical/psychological consultant. 29

Hire More Staff      Through funding provided by ARRA, in FY 2009, SSA hired a
                     significant number of new front-line employees to address the
                     increasing disability and retirement workloads. Specifically, SSA’s
disability and retirement operations hired 1,530 new employees in local field offices,
teleservice centers, and processing centers and 300 new employees in the State
DDSs. 30 The Agency also reported that ODAR hired 147 new ALJs and 1,322 hearing
office support staff (including 506 decision writers and 392 other support staff).

Under the hiring initiative, SSA hired ODAR staff using funds provided by SSA’s
FY 2009 appropriation and the American Recovery and Reinvestment Act of 2009. 31

Preserve the Public’s Trust in SSA’s Programs

In 1980 and the first half of the 1990s, the number of disability beneficiaries dramatically
increased for various reasons. To reduce the cost of this growth and ensure the quality
of the disability programs, Congress amended the Act to:

•     Include additional provisions designed to encourage disabled beneficiaries to return
      to work (such as a provision to exclude impairment-related work expenses from a
      beneficiary’s earnings). However, a 1992 study showed that these work incentives
      did not lead to significant changes in earnings and benefits. 32 (For more information
      on work incentives, see Appendix F.)




29
     75 F.R. 9821 (2010).
30
  In November 2009, we conducted a review, The Office of Operations’ Staffing Plans Under the
American Recovery and Reinvestment Act of 2009 (A-09-09-29157), to assess the Office of Operations’
staffing plans funded by ARRA.
31
  Pub. L. No. 111-5, Division A, Title VIII. In December 2009, we conducted a review, The Office of
Disability Adjudication and Review’s Staffing Plans Under the American Recovery and Reinvestment Act
(A-12-09-29140), in which we assessed ODAR’s staffing plans funded by ARRA.
32
  SSA, Social Security Bulletin 55(2): Disability Beneficiaries Who Work and Their Experience Under
Program Work Incentives, 1992. From 2004 to 2008, we conducted three reviews related to one of SSA’s
key work incentives—the Ticket to Work program: Social Security Administration’s Ticket to Work
Program (A-02-03-13079), December 2004; Ticket To Work – Operations Support Manager for Vocational
Rehabilitation Agencies and Employment Networks (A-02-06-16017), September 2006; and Ticket to
Work and Self-Sufficiency Program Cost Effectiveness (A-02-07-17048), August 2008.



SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                   12
•     Require SSA to conduct continuing disability reviews (CDR) at least once every
      3 years for all DI beneficiaries whose impairments were likely to improve. 33
      However, from FYs 2003 to 2008, the Agency reduced the number of full medical
      CDRs it conducted by 60 percent. As a result, SSA is now facing a large backlog of
      CDRs. 34

• Require that SSA conduct (1) pre-effectuation reviews of DDS allowances and CDR
  continuances to detect and correct erroneous favorable determinations before they
  are effectuated and (2) quality assurance reviews of DDS performance to ensure
  equity and uniformity in disability determinations. 35

In 1996, Congress passed legislation to tighten the criteria for SSI eligibility. This
legislation eliminated any reference to maladaptive behaviors in the Listings, eliminated
the Individualized Functional Assessment, 36 and changed the definition of disability for
children. 37

In FY 1998, the Cooperative Disability Investigations program was established to
address the integrity of the disability programs. The program’s mission is to obtain
evidence that can resolve questions of fraud in SSA’s disability claims. The program is
managed in a cooperative effort between SSA’s Offices of Operations, the Inspector
General, and Disability Programs. In FY 2009, the 20 Cooperative Disability
Investigations units, operating in 18 States, have been responsible for over $240 million
in program savings. 38




33
     The Act § 221(i)(1), 42 U.S.C. § 421(i)(1).
34
  In March 2010, we conducted a review, Full Medical Continuing Disability Reviews (A-07-09-29147), to
determine the financial impact that fewer full medical CDRs had on the DI and SSI programs.
35
   In July 2010, SSA informed us that it conducts pre-effectuation reviews of at least half of DDS
allowances and quality assurance reviews of 70 CDR continuances and a statistically valid sample of
70 initial allowances and 70 initial denials per State per quarter.
36
  Although this tool was eliminated, functional analysis is still a part of the process for determining
disability in children.
37
  Before this legislation was enacted, the definition of disability for an individual under age 18 was a
medically determinable physical or mental impairment(s) which met the duration requirement and was of
comparable severity to that which qualifies an individual age 18 or over. Comparable severity exists,
provided the child is not engaging in SGA, when the child's physical or mental impairment(s) so limits his
or her ability to function independently, appropriately, and effectively in an age-appropriate manner that
the impairment(s) and the limitation(s) resulting from it are comparable to those which would disable an
adult.
38
     SSA, OIG, Top Issues Facing Social Security Administration Management, December 2009.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                          13
                                                                   Conclusion
Since 1980, many changes have occurred in our society, including advances in
medicine and assistive technology, emerging diseases, a shift in the jobs that exist in
our national economy, and a general increase in the number of disability claims and
beneficiaries each year. SSA expects this trend will continue for years to come
because of the aging of the baby boomers.

In response to these changes, the Agency has implemented many initiatives. For
example, SSA has updated the Listings to reflect changes in medicine and assistive
technology and has developed a new process to keep the Listings updated. The
Agency has also begun developing a replacement for the DOT that meets its needs
regarding vocational analysis and can be continuously updated. Additionally, SSA has
been pursuing the use of technology in its disability claims process to address the
increasing disability workloads.

However, because of such factors as resource limitations and matters that need to be
resolved through new legislation or regulation, some of these initiatives were
implemented years after the changes took place in society. Furthermore, while some
initiatives worked, others did not. As a result, SSA has not been able to keep pace with
all changes in society.




SSA’s Disability Programs and Changes in Society (A-01-09-19028)                          14
                                                               Other Matters
When individuals are dissatisfied with SSA’s decision on their disability claims, they may
appeal to the following Federal Courts in this order: U.S. District Court, U.S. Court of
Appeals (Circuit Court), and U.S. Supreme Court. The Federal Courts have the
authority to dismiss, modify, affirm, or reverse the decision. Below are examples of
individuals who appealed SSA’s decision to the Federal Courts.

•      In the early 1980s, thousands of beneficiaries lost their benefits because of a
       1980 provision requiring that SSA conduct CDRs at least once every 3 years on
       individuals whose impairments were likely to improve. Many of these individuals
       appealed to the Federal Courts when they lost their benefits. In some of these
       cases, the Courts reversed SSA’s decisions and challenged SSA’s policies on the
       disability claims process. During this time, stories appeared in the press describing
       individuals who appeared to be severely disabled having their benefits terminated.
       Concerned about these stories and complaints from constituents, Congress
       mandated a top-to-bottom review of standards, policies, and procedures affecting
       the disability claims process, which led to a number of revisions in 1984.

• During the first half of the 1980s, Brian Zebley, a child who was denied SSI
  payments, filed a nationwide class action lawsuit in the U.S. District Court and
  appealed to the U.S. Court of Appeals for the Third Circuit challenging SSA’s
  process for determining disability in children. 39 In 1988, the U.S. Court of Appeals
  for the Third Circuit ruled that the process for determining disability in children was
  more restrictive than the statutory definition of disability, 40 and in 1990, the U.S.
  Supreme Court affirmed this decision. 41 As a result of this ruling, SSA revised the
  childhood regulations and re-evaluated thousands of cases based on the new
  regulations.

•      In June 1996, a claimant applied for Social Security DI and SSI disability benefits.
       She had worked as an elevator operator for 6 years until her job was eliminated in
       August 1995. SSA denied her claim at the initial and reconsideration levels of
       adjudication and she requested a hearing before an ALJ. The ALJ found that she
       was not under a disability because her impairments did not prevent her from
       performing her past work as an elevator operator. The ALJ rejected the claimant's
       argument that she was not able to do her past work because it no longer existed in
       significant numbers in the national economy. The SSA's Appeals Council denied the
       claimant's request for review. The United States District Court for the District of New
       Jersey affirmed the ALJ's findings, concluding that whether the old job exists is

39
     Zebley by Zebley v. Bowen, 855 F.2d 67 (3d Cir. 1988).
40
     ld.
41
     Sullivan v. Zebley, 493 U.S. 521 (1990).


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                            15
   irrelevant under SSA's regulations. The Court of Appeals for the Third Circuit
   reversed and remanded the case to SSA, holding that the statute unambiguously
   provides that the ability to perform prior work disqualifies a claimant from benefits
   only if the work is “substantial gainful work which exists in the national economy.”




SSA’s Disability Programs and Changes in Society (A-01-09-19028)                           16
                                           Appendices




SSA’s Disability Programs and Changes in Society (A-01-09-19028)
                                                                   Appendix A

Acronyms
    Act                 Social Security Act
    ALJ                 Administrative Law Judge
    ARRA                American Recovery and Reinvestment Act of 2009
    CDR                 Continuing Disability Review
    C.F.R.              Code of Federal Regulations
    DCPS                Disability Case Processing System
    DDS                 Disability Determination Services
    DI                  Disability Insurance
    DOT                 Dictionary of Occupational Titles
    DSI                 Disability Service Improvement
    eCAT                Electronic Claims Analysis Tool
    eDIB                Electronic Disability Process
    F.R.                Federal Register
    FY                  Fiscal Year
    Listings            Listing of Impairments
    MEGAHIT             Medical Evidence Gathering and Analysis through Health
                        Information Technology
    MSCC                Military Service Casualty Cases
    ODAR                Office of Disability Adjudication and Review
    OIG                 Office of the Inspector General
    POMS                Program Operations Manual System
    Pub. L. No.         Public Law Number
    RFC                 Residual Functional Capacity
    SDM                 Single Decision Maker
    SGA                 Substantial Gainful Activity
    SSA                 Social Security Administration
    SSI                 Supplemental Security Income
    U.S.C.              United States Code




SSA’s Disability Programs and Changes in Society (A-01-09-19028)
                                                                                       Appendix B

The Social Security Administration’s Processes
for Evaluating Disability in Adults and Children
Under the Social Security Act (Act), an adult is considered disabled if he or she is
unable to engage in substantial gainful activity (SGA) 1 by reason of a medically
determinable physical or mental impairment that can be expected to result in death or
that has lasted or can be expected to last for a continuous period of not less than
12 months.2

The Social Security Administration (SSA) has a five-step sequential process for
evaluating disability for adults, which generally follows the definition of disability in the
Act (Chart B-1). 3 The steps are followed in order. If a decision about disability can be
made at a step, the analysis stops, and a decision is made. If a decision about disability
cannot be made, the adjudicator proceeds to the next step.

At Step 1 in the process, SSA generally considers whether the claimant is performing
SGA. If the claimant is performing SGA, SSA finds that he or she is not disabled,
regardless of the severity of his or her impairments. If the claimant is not performing
SGA, the claim is sent for a determination of whether the claimant is disabled at a later
step of the process. When the claim is initially developed, the adjudicator generally
requests all the evidence needed for consideration at Steps 2 through 5 of the
sequential evaluation process. The adjudication process stops when a decision
regarding disability can be made at any step. 4




1
  20 C.F.R. §§ 404.1572 and 416.972: SGA means the performance of significant physical and/or mental
activities in work for pay or profit, or in work of a type generally performed for pay or profit. As of 2010,
"countable earnings" of employees indicate SGA and "countable income" of self-employed individuals is
"substantial" if the amount averages more than $1,000 per month for non-blind individuals or $1,640 for
blind individuals. See also SSA, Program Operations Manual System, DI 10501.001 and 10501.015 B
and C.
2
 The Act §§, Title II, 216(i)(1) and 223(d)(1)(A), 42 U.S.C. §§ 416(i)(1) and 423(d)(1)(A), and
Title XVI, § 1614(a)(3)(A), 42 U.S.C § 1382c(a)(3)(A). See also 20 C.F.R. §§ 404.1505 and 416.905.
3
    20 C.F.R. §§ 404.1520 and 416.920.
4
  If the claimant disagrees with the Agency’s initial disability determination, he or she can file an appeal
within 60 days from the date of notice of the determination. In most cases, there are three levels of
administrative review: (1) reconsideration by the DDS, (2) hearing by an administrative law judge, and
(3) request for review by the Appeals Council. If a claimant is still dissatisfied after exhausting
administrative remedies, he or she can appeal to the Federal courts.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                           B-1
At Step 2, SSA determines whether the claimant’s impairment—or combination of
impairments—is severe. 5 If the claimant does not have a severe medically
determinable impairment(s) that meets the duration requirement, the claim is denied. If
the claimant has a severe medically determinable impairment(s) that meets the duration
requirement, the Agency goes to Step 3 and looks to the Listing of Impairments. If the
severity of the impairment meets or medically equals a specific listing and meets the
duration requirement, the individual is determined to be disabled.

If the individual’s impairment does not meet or medically equal a listing, the Agency
goes to Step 4, and, if necessary, Step 5. At Step 4, the Agency determines whether
the claimant can perform any past relevant work, considering his or her residual
functional capacity (RFC) 6 and the physical and mental demands of the work he or she
did. If the claimant can perform past relevant work, the claim is denied. If the claimant
cannot perform past relevant work, SSA goes to Step 5 and determines whether the
claimant can perform any other work that exists in the national economy, considering
his or her RFC, age, education, and past work experience. If the claimant can perform
any other work, then SSA finds him or her not disabled; if the claimant cannot perform
any other work, SSA finds him or her disabled. 7




5
 20 C.F.R. §§ 404.1520(c), 404.1521, 416.920(c) and 416.921: An impairment or combination of
impairments is not severe if it does not significantly limit an individual’s physical or mental ability to do
basic work activities. Also, see Social Security Ruling 85-28.
6
  20 C.F.R. §§ 404.1545 and 416.945: An individual’s impairment(s), and any related symptoms, such as
pain, may cause physical and mental limitations that affect what he or she can do in a work setting. The
RFC is the most the individual can still do despite these limitations. SSA assesses RFC based on all
relevant evidence in the case record.
7
 SSA has another sequential process for evaluating whether a disabled beneficiary’s disability continues.
20 C.F.R. §§ 404.1594(f) and 416.994(b)(5). This process generally requires a showing of medical
improvement related to the ability to work, but also includes steps like the ones in the initial sequential
evaluation process.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                                B-2
                                   Chart B-1: SSA’s Five-Step Sequential Evaluation
                                          for Determining Disability for Adults


                                                   Step 1: SGA
                             Yes      Is the claimant engaging in SGA?

                                                       No

                                            Step 2: Medical Severity
                                      Does the claimant have a severe
                                 No
                                      medically determinable impairment(s)
                                      that meets the duration requirement?

                                                       Yes
                                                  Step 3: Listings
                        Not
                                      Does the claimant have an                   Yes   Disabled
                      Disabled
                                      impairment(s) that meets or equals a
                                      listing and meets the duration
                                      requirement?

                                                       No
                                 No          Step 4: Previous Work
                                      Does the impairment(s) prevent the
                                      claimant from doing any past relevant
                                      work?

                                                         Yes
                                                Step 5: Other Work
                                      Does the impairment(s) prevent the
                             No       claimant from doing any other work         Yes
                                      that exists in the national economy?




Under the Act, an individual under age 18 is considered disabled for the purposes of
Supplemental Security Income (SSI) if he or she has a medically determinable physical
or mental impairment or combination of impairments, which causes marked and severe
functional limitations, and can be expected to result in death or which has lasted or can
be expected to last for a continuous period of not less than 12 months. 8

As shown in Chart B-2, SSA has a similar sequential process with three steps for
evaluating disability in children under SSI. 9 Steps 1 and 2 are the same as for adults,
with “severe” defined in terms of age-appropriate childhood functioning instead of basic



8
    The Act, § 1614(a)(3)(C)(i), 42 U.S.C. § 1382c(a)(3)(C)(i). 20 C.F.R. §416.906.
9
    20 C.F.R. § 416.924.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                   B-3
work-related activities. At Step 3, SSA determines whether the impairment(s) meets or
medically equals a listing or functionally equals the listings and meets the duration
requirement.


                     Chart B-2: SSA’s Three-Step Sequential Evaluation
                           for Determining Disability for Children

                        Yes                 Step 1: SGA
                               Is the claimant engaging in SGA?


                                                No
                                     Step 2: Medical Severity
                        No     Does the claimant have a severe
                               medically determinable impairment(s)
                               that meets the duration requirement?


                                                Yes
               Not       No                                              Yes   Disabled
             Disabled                      Step 3: Listings
                               Does the claimant have an
                               impairment(s) that meets or medically
                               equals a listing or functionally equals
                               the Listings and meets the duration
                               requirement?




SSA’s Disability Programs and Changes in Society (A-01-09-19028)                          B-4
                                                                                       Appendix C

The Social Security Disability Claims Process
The Social Security disability claims process begins when a person files a disability
claim and does not end until the Social Security Administration (SSA) completes the
claim. As a claim moves through the process, it goes through a network of
components, with each component responsible for some aspect of the claim. The
components involved in the process may include the field offices, Teleservice Centers,
disability determination services (DDS), Disability Quality Branches, Payment Service
Centers, hearing offices, Appeals Council, and Federal Courts.

Field Office and Teleservice Center Roles

Field offices and Teleservice Centers perform similar functions. The field offices
conduct business in person, over the telephone, and over the Internet while Teleservice
Centers conduct business only over the telephone and Internet. The field offices and
Teleservice Centers help claimants complete applications for disability benefits and
requests for appeals. In addition, they determine whether the claimants are performing
substantial gainful activity and meet the non-disability criteria for benefits, such as
insured status (Disability Insurance program) and limited income and resources
(Supplemental Security Income program). They also send the initial claim and appeal
requests to the appropriate components for further processing 1 and may receive them
back at some point for final processing. 2

DDS Role

The DDS is generally a State-run agency that, by statute, makes disability
determinations for SSA. SSA reimburses the State for all the DDS expenses and has
oversight of the quality of the DDS’s work. At most DDSs, a disability adjudicatory team
comprised of a disability examiner and medical/psychological consultant, 3 using SSA’s
regulations, policies, and procedures, obtains the relevant medical and other evidence
and makes a determination whether a claimant is disabled under the Social Security Act
(Act).


1
 SSA may defer developing whether a person meets the non-disability criteria until receipt of a favorable
medical decision from a DDS.
2
 If the field office cannot process or partially processes the claim, it will send the claim to the payment
service center for final processing.
3
 Medical/psychological consultant refers to physicians, psychologists, psychiatrists, optometrists,
podiatrists, and speech-language pathologists employed by the DDS. 20 C.F.R. §§ 404.1616 and
416.1016. See also SSA, Program Operations Manual System, DI 24501.001 C 2. At DDSs that use
Single Decision Makers, a disability examiner can make the disability determination in many cases
without signoff by a medical/psychological consultant.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                              C-1
Disability Quality Branch Role

SSA is required to report to Congress annually on the benefits and costs of the pre-
effectuation reviews; therefore, the Disability Quality Branches review half of all DDS
allowances. To ensure a high level of accuracy, the Disability Quality Branches review
a statistically valid quality assurance sample of initial and reconsideration allowances
and denials made per calendar quarter per State. For each review, a Federal quality
reviewer determines whether the evidentiary record supports the determination and
whether the evidence and determination conform to SSA’s operating policies and
procedures. If the Disability Quality Branch finds the DDS determination is not
supported, it returns the claim to the DDS to reverse the determination or gather
additional evidence.

Payment Service Center Role

The Payment Service Center processes favorable hearing decisions and Appeals
Council review and Federal court decisions. It also processes initial disability
determinations when the field office cannot complete them, such as when the field office
needs assistance in determining the amount of back payments due the claimant.

Hearing Office Role

An ALJ generally conducts a hearing at a hearing office. Before the hearing, the
claimant and his or her representative may examine the evidence used in making the
determination under appeal and submit new evidence. At the hearing, the ALJ can
question the claimant and any witnesses the claimant brings. The ALJ may request
other witnesses, such as medical or vocational experts, to testify at the hearing. The
claimant and his or her representative may also question the witnesses.

The ALJ does not determine whether the DDS’ decision was correct but issues a new
(de novo) decision based on the evidence. If the claimant waives the right to appear at
the hearing, the ALJ makes a decision based on the evidence on file and any new
evidence submitted for consideration.

Appeals Council Role

The Appeals Council consists of administrative appeals judges and appeals officers. A
claimant who is dissatisfied with the ALJ decision can ask the Appeals Council to review
that decision. The Appeals Council may deny, dismiss, or grant a request for review. If
the Appeals Council denies or dismisses the request for review, the ALJ’s decision
becomes SSA’s final decision. If the Appeals Council grants the request for review, it
can (1) issue its own decision affirming, modifying, or reversing the ALJ’s decision or
(2) remand the case to an ALJ for a new decision, additional evidence, or other
additional action. If the Appeals Council issues its own decision, that decision becomes
SSA’s final decision. The Appeals Council may also review a case within 60 days of the
ALJ’s decision on its own motion; that is, without a claimant requesting the review.



SSA’s Disability Programs and Changes in Society (A-01-09-19028)                         C-2
Federal Court Role

If a claimant is dissatisfied with SSA’s final decision, he or she may file a civil action with
the following Federal Courts in this order: U.S. District Court, U.S. Court of Appeals
(Circuit Court), and U.S. Supreme Court. Federal Courts have the power to dismiss,
affirm, modify, or reverse SSA’s final decisions and may remand cases to SSA for
further action including a new decision. If SSA’s final decision is supported by
“substantial evidence” and consistent with the Act, the court should affirm the decision.




SSA’s Disability Programs and Changes in Society (A-01-09-19028)                           C-3
                                                                       Appendix D

Scope and Methodology
To achieve our objective, we:

•   Reviewed the Social Security Act and Social Security Administration (SSA)
    regulations, rules, policies, and procedures on disability case processing.

•   Reviewed published materials from private sources on SSA’s disability programs,
    issues related to disability in the United States, and changes in our society.

•   Reviewed prior Office of the Inspector General reports.

•   Reviewed prior Social Security Advisory Board and Government Accountability
    Office reports on SSA’s disability programs.

•   Observed the March 2009 hearing before the Committee on Ways and Means,
    Social Security Subcommittee and Income Security and Family Support
    Subcommittee of the U.S. House of Representatives. 1

•   Attended several meetings of the Occupational Information Development Advisory
    Panel.

•   Met with staff from the Agency’s Office of Disability Programs under the Deputy
    Commissioner for Retirement and Disability Policy.

We conducted our review from January through April 2010 in Boston, Massachusetts.
The entities reviewed were the Offices of the Deputy Commissioners for Operations,
Retirement and Disability Policy, and Systems. We conducted our review in
accordance with the Council of the Inspectors General on Integrity and Efficiency’s
Quality Standards for Inspections.




1
 A transcript of this hearing can be found at
http://waysandmeans.house.gov/Hearings/transcript.aspx?NewsID=10382.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)
                                                                                  Appendix E

Prior Office of the Inspector General Reports
We have issued several reports related to the Social Security Administration’s (SSA)
disability claims process. Several of these reports are discussed below.

In August 2000 and March 2009, we issued the following reports on SSA’s Listing of
Impairments (Listings).

•   Status of the Social Security Administration’s Updates to the Medical Listings
    (A-01-99-21009). In this review, we found that SSA had not updated some Listings
    in over 10 years and the mental impairment Listings—which accounted for the
    highest percentage of new disability awards—had not had a comprehensive revision
    since 1985.

•   The Social Security Administration’s Listing of Impairments (A-01-08-18023). In this
    review, we found that SSA had made progress in updating its Listings. In
    January 2008, SSA officials informed the Government Accountability Office that the
    Agency expected to finish updating its Listings by mid-2010. 1 We also found that
    SSA had implemented a new process to keep the Listings updated at least once
    every 5 years. Under this process, SSA seeks input from various groups (such as
    medical experts and advocacy groups) and conducts reviews and case studies for
    each listing.

In December 2004, September 2006, and August 2008, respectively, we issued the
following reports on SSA’s Ticket to Work Program.

•   Social Security Administration’s Ticket to Work Program (A-02-03-13079). In this
    review, we found that SSA and its contractor, MAXIMUS, generally met the contract
    objectives we reviewed, which were established to ensure proper implementation
    and management of the program. 2

•   Ticket to Work – Operations Support Manager for Vocational Rehabilitation
    Agencies and Employment Networks (A-02-06-16017). In this review, we found that
    SSA met its responsibility to oversee the contract with the Operations Support
    Manager of MAXIMUS for the tasks we reviewed. We also found that the
    Operations Support Manager successfully met most of the contract objectives in the


1
 Government Accountability Office, Federal Disability Programs, More Strategic Coordination Could Help
Overcome Challenges to Needed Transformation (GAO-08-635), May 2008.
2
 The program provides tickets to eligible Disability Insurance and Supplemental Security Income disabled
beneficiaries, which can be used to obtain vocational rehabilitation or employment services through an
Employment Network or State Vocational Rehabilitation Agency.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                    E-1
    tasks we reviewed and was properly managing and overseeing Vocational
    Rehabilitation Agencies and Employment Network activities.

•   Ticket to Work and Self-Sufficiency Program Cost Effectiveness (A-02-07-17048). In
    this review, we found that the Ticket to Work program appeared to have limited
    success in maintaining economic self-sufficiency for disabled beneficiaries. Also,
    the program did not produce significant savings.

In March and November 2009, respectively, we issued the following reports on the
impact furloughs and other State-related issues have on SSA’s disability programs.

• Impact of State Employee Furloughs on the Social Security Administration’s
  Disability Programs (A-01-09-29137). In this review, we found that furloughs of the
  Disability Determination Services’ (DDS) employees and other issues, such as hiring
  freezes, slow the processing of disability claims and reduce the flow of those
  benefits into the economy. For example, we found that the California DDS would
  encounter a shortfall of capacity by 10 percent because of furlough days. As a
  result, we expected the processing of approximately 2,375 disability cases would be
  delayed each month. This would translate to about 776 allowances. Therefore, we
  estimated that the payment of about $648,000 in benefits would be delayed to newly
  disabled claimants and from flowing into the economy on a rolling monthly basis.

• Impact of State Budget Issues on the Social Security Administration’s Disability
  Programs (A-01-10-11006). In this review, we found that State budget issues (such
  as furloughs of DDS employees) have slowed the processing of disability claims—
  despite the measures taken by SSA to address this matter. As a result of furloughs,
  we estimated that the processing of approximately 69,000 disability cases would be
  delayed over the following 12 months. This wait would result in about $126.2 million
  in benefits being delayed to newly disabled claimants and from flowing into the
  economy. Additionally, we found that State budget cuts affected disability
  beneficiaries and recipients. For example, some States reduced the Supplemental
  Security Income State Supplemental Payments and restricted eligibility for other
  programs, including health care coverage.

In May 2009, we issued a report on the National Rollout of Quick Disability
Determinations (A-01-09-19030). In this review, we found that the Quick Disability
Determination process was working as SSA intended. Specifically, the Agency allowed
93 percent of claims selected for Quick Disability Determinations and generally made
medical determinations for these claims within the recommended timeframe of 20 days
or fewer.




SSA’s Disability Programs and Changes in Society (A-01-09-19028)                     E-2
In November and December 2009, respectively, we issued the following reports on
hiring staff using American Recovery and Reinvestment Act of 2009 (ARRA) funds. 3

•     The Office of Operations’ Staffing Plans Under the American Recovery and
      Reinvestment Act (A-09-09-29157). In this review, we found that the Office of
      Operations had developed an appropriate staffing plan for its $251 million in ARRA
      funds that were provided for the processing of the Agency’s disability and retirement
      workloads. However, SSA overestimated the salaries and benefits for new hires and
      did not disclose all training costs for these employees. Additionally, the performance
      measures did not identify all anticipated benefits of the ARRA funds.

•     The Office of Disability Adjudication and Review's Staffing Plans Under the
      American Recovery and Reinvestment Act (A-12-09-29140). In this review, we
      found that the Office of Management and Budget had accepted SSA’s staffing plan
      for its $123 million in ARRA funds that were provided to process additional hearing
      workloads. However, SSA overestimated the actual cost of new hires planned for
      Fiscal Year (FY) 2009. In addition, the staffing plan did not provide information on a
      number of areas, including (1) a clear breakout of the allocation in FY 2010 and
      anticipated use of overtime, (2) the goals used to allocate new hires by location and
      skills, and (3) the key productivity measures for the hearings workload as well as
      factors that may affect productivity while new hires are coming onboard and being
      trained.

In March 2010, we issued a report on Full Medical Continuing Disability Reviews
(A-07-09-29147). 4 In this review, we found that resource limitations and increases in
core workloads prevented SSA from conducting full medical continuing disability
reviews (CDR) when they became due. As a result, SSA estimated a backlog of over
1.5 million full medical CDRs would exist at the end of FY 2010. From Calendar Years
2005 through 2010, we estimated SSA will have made benefit payments of between
$1.3 and $2.6 billion that could have potentially been avoided if the full medical CDRs in
the backlog had been conducted when they became due. Further, although SSA plans
to conduct an increased number of full medical CDRs in FY 2011, the 1.5 million full
medical CDR backlog will most likely remain. Therefore, we estimated SSA will pay
benefits of between $556 million and $1.1 billion during Calendar Year 2011 that could
have potentially been avoided if the full medical CDRs in the backlog had been
conducted when due.




3
    ARRA, Pub. L. No. 111-5, Division A, Title VIII.
4
 A medical CDR is a review of a beneficiary’s disabling condition to determine whether he or she
continues to be disabled.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                   E-3
                                                                                      Appendix F

Work Incentives
Under the Disability Insurance (DI) program, a disabled beneficiary may work as long as
it is not considered substantial gainful activity (SGA). SGA means the performance of
significant physical and/or mental activities in work for pay or profit, or in work of a type
generally performed for pay or profit. 1 Under the Supplemental Security Income (SSI)
program, a disability recipient may also work as long as his or her “countable earnings”
are less than the income limit required for SSI eligibility. 2 The Social Security
Administration (SSA) generally only uses SGA as a factor of SSI eligibility when initially
determining whether someone is disabled.

Since establishing these programs, Congress has passed many provisions with the
intent to provide disabled beneficiaries with incentives to return to work. The work
incentives apply under the DI program, SSI program, or both.

DI Work Incentives

•     Trial Work Period: Beneficiaries may work for 9 months within a 60-month rolling
      period without suffering a loss of benefits. As of 2010, a trial work month is any
      month in which earnings are above $720. 3

•     Extended Period of Eligibility: This 36-month period follows the end of the trial
      work period. During this time, a beneficiary may receive a benefit for any month in
      which earnings fall below the SGA limit. 4

•     Extended Medicare Coverage: Medicare is a Federal program that provides
      premium-free hospital insurance and supplemental medical insurance for any
      disabled individual who is eligible for DI benefits (after a 24-month waiting period).
      With the passage of the Extended Medicare Coverage provision, when a person’s DI
      benefits cease due to SGA, his or her Medicare coverage may continue for at least
      93 more months (or about 8 years). 5

1
 20 C.F.R. §§ 404.1572 and 416.972. See also SSA, Program Operations Manual System (POMS),
DI 10501.001. As of 2010, "countable earnings" of employees indicate SGA and "countable income" of
self-employed individuals is "substantial" if the amount averages more than $1,000 per month for non-
blind individuals or $1,640 for blind individuals. SSA, POMS, DI 10501.015 B and C.
2
 The income limit for SSI eligibility varies depending on the recipient’s circumstances. The Act §§ 1611
et seq. and 1614 et seq., 42 U.S.C. §§ 1382 et seq. and 1382c et seq.
3
    The Act § 222(c), 42 U.S.C. § 422(c). See also SSA, POMS, DI 13010.060.
4
    The Act § 223(e), 42 U.S.C. § 423(e). See also 20 C.F.R. § 404.1592a.
5
    The Act § 226(b)(2), 42 U.S.C. § 426(b)(2). See also Pub. L. No. 106-170 § 202.


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                      F-1
•     Protection from Medical Continuing Disability Reviews (CDR): If an individual
      has been eligible for disability benefits for 2 years, SSA will not conduct a medical
      CDR for a beneficiary solely because the individual returns to work. 6

•     No Waiting Period: If a beneficiary stops receiving disability benefits because of
      medical recovery or SGA and becomes entitled to benefits again within the next
      5 years, he or she may not have to serve the 5-month waiting period again before
      receiving benefits.7

SSI Work Incentives

•     Continuation of Medicaid Eligibility: Medicaid is a State-administered health
      insurance program for people with low income and resources. Most SSI disability
      recipients are eligible for Medicaid, which is administered by the States. 8 With the
      passage of the Continuation of Medicaid Eligibility provision, when a recipient’s SSI
      payments stop because of earnings, his or her Medicaid coverage may continue if
      he or she cannot afford similar medical care and depends on Medicaid to work. 9

•     Earned Income Exclusion: SSA does not count $65 of a recipient’s monthly
      earned income plus one-half of the remaining earnings. 10

•     Student Earned Income Exclusion: For a recipient under age 22 who is regularly
      attending school, SSA excludes up to $1,640 of earned income per month. The
      maximum yearly exclusion is $6,600. 11

•     Work Expenses of the Blind: For a blind recipient who works, SSA may exclude
      any expense from his or her earned income that was attributable to earning that
      income. Some examples include income taxes, meals consumed during work hours,
      or transportation to and from work. 12




6
 The Act § 221(m)(1)(A), 42 U.S.C. § 421(m)(1)(A). A medical CDR is a review of a beneficiary’s
disabling condition to determine whether he or she continues to be disabled.
7
    The Act § 223(a)(1)(E), 42 U.S.C. § 423(a)(1)(E).
8
    The Act § 1843 et seq., 42 U.S.C. § 1395v et seq.
9
    The Act § 1619(b), 42 U.S.C. § 1382h(b).
10
     20 C.F.R. § 418.3325(b).
11
     The Act § 1612(b)(1), 42 U.S.C. § 1382a(b)(1). See also SSA, POMS, TC 17001.020.
12
     The Act § 1612(b)(4)(A), 42 U.S.C. § 1382a(b)(4)(A).


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                                  F-2
•     Plan for Achieving Self-Support: SSA excludes a recipient’s income and
      resources needed to obtain a specific job, vocational training, or start a business.13

•     Property Essential to Self-Support: SSA excludes as a resource any property
      that is essential for a recipient’s self-support, such as property used in a trade or
      business. 14

•     Reinstating Eligibility Without a New Application: A beneficiary does not need to
      file a new application to reinstate SSI payments or Medicaid coverage if he or she
      has been ineligible for SSI for 12 months or less.

DI and SSI Work Incentives

•     Ticket to Work Program: This voluntary program assists disabled beneficiaries in
      obtaining free employment services, vocational rehabilitation services, and other
      support services needed to get or keep a job. It also protects beneficiaries from
      receiving a medical CDR while participating in the program. 15

• Expedited Reinstatement of Benefits: Up to 5 years after a disabled individual
  stops receiving benefits because of work, he or she may request benefits again
  without filing a new application. 16

•     Impairment Related Work Expenses: SSA excludes from earnings the cost of
      certain impairment related items or services that a disabled person needs to work.
      Some examples include medical devices and prostheses. 17

•     Continued Payments under a Vocational Rehabilitation or Similar Program:
      Beneficiaries who medically recover while receiving vocational rehabilitation or other
      support services that will likely lead to becoming self-supported may continue to
      receive benefits.18

•     Subsidies and Special Conditions: Subsidies and special conditions refer to
      support received on the job, such as close supervision. If this support results in the
      beneficiary receiving more earnings than his or her services were worth, SSA will not
      count these additional earnings.

13
     The Act §§ 1612(b)(4) and 1613(a)(4), 42 U.S.C. §§ 1382a(b)(4) and 1382b(a)(4).
14
     The Act § 1613(a)(3), 42 U.S.C. § 1382b(a)(3).
15
     The Act § 1148 et seq., 42 U.S.C. § 1320b-19 et seq.
16
     The Act §§ 223(i)(1) and 1631(p)(1), 42 U.S.C. §§ 423(i)(1) and 1383(p)(1).
17
  The Act §§ 223(d)(4)(A) and 1612(b)(4)(B), 42 U.S.C. §§ 423(d)(4)(A) and 1382a(b)(4)(B);
20 C.F.R. §§ 404.1576 and 416.976.
18
     The Act §§ 225(b) and 1631(a)(6), 42 U.S.C. §§ 425(b) and 1383(a)(6).


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                              F-3
•     Unincurred Business Expenses: SSA excludes from self-employed net earnings
      the value of any self-employment business support provided to a disabled person at
      no cost. 19

•     Unsuccessful Work Attempt: An unsuccessful work attempt is a disabled
      individual’s effort to do substantial work that either stopped or fell below the SGA
      limit in 6 months or less because of the individual’s disabling condition or removal of
      special conditions related to the disability. SSA does not consider earnings during
      an unsuccessful work attempt to be SGA. 20




19
     20 C.F.R. §§ 404.1575(c) and 416.975(c).
20
     20 C.F.R. § 404.1574(c) and 416.974(c).


SSA’s Disability Programs and Changes in Society (A-01-09-19028)                          F-4
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
